IN THE SUPREME COURT OF THE UNITED STATES

r

t\

No.

ROBIN E. JACKSON

Plaintiff

v.

COUNTY OF SACRAMENTO, et al.,

Defendant

ON APPEAL FROM THE UNITED STATES COURT
>

OF APPEALS FOR THE NINTH CIRCUIT

PLAINTIFF'S ROBIN E. JACKSON'S
APPENDIX VOLUME! of 1

Robin E. Jackson Pro Se litigant
2220 65th Avenue
Sacramento, California 95822

1

APPENDIX TO THE PETITION FOR A WRIT OF CERTIORARI
TABLE OF CONTENTS
DOCUMENTS
Memorandum United States Court of
Appeal for Ninth Circuit {July 16,2020)
(Appendix "A")............................. .....

Page Nos.

la

Judgment/Order United States District Court
Eastern District of California (August 6,2019)
(Appendix" A")......... ............ ......................

.4a

United States District Court
2nd Finding and Recommendation Eastern District of California
From United States Magistrate Judge Deborah Barnes (May28,2019)
(Appendix "A").............. ................................................................

,7a

United States District Court
Ist Finding and Recommendation
Eastern District of California
From United States Magistrate Judge Gregory G. Hollows (October 30,2017)
(Appendix "A")........................................................................

,23a

2

uase: iy-16575, 07/16/2020, ID: 11754760, DktEntry: 18-1, Page 1 of 3
1a

NOT FOR PUBLICATION

FILED

UNITED STATES COURT OF APPEALS

JUL 16 2020

FOR THE NINTH CIRCUIT
ROBIN ELAINE JACKSON,
Plaintiff-Appellant,

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

No. 19-16575
D.C. No. 2:16-CV-00920-MCE-DB

v.
COUNTY OF SACRAMENTO
DEPARTMENT OF HEALTH AND
HUMAN SERVICES; et a!.,

MEMORANDUM*

Defendants-Appellees.
Appeal from the United States District Court
for the Eastern District of California
Morrison C. England, Jr., District Judge, Presiding
Submitted July 14,2020**
Before:

CANBY, FRIEDLAND, and R. NELSON, Circuit Judges.

Robin Elaine Jackson appeals pro se from the district court’s summary
judgment in her employment action alleging federal and state law claims. We have
jurisdiction under 28 U.S.C. § 1291. We review de novo. Toguchi v. Chung, 391

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**
The panel unanimously concludes this case is suitable for decision
9 without oral argument. See Fed. R. App. P. 34(a)(2).

V, wr i ■wfi.wc.U) IU.

1

/ uHfou, uwcmry: 10-1, rage zoi 3

2a

F.3d 1051,1056 (9th Cir. 2004). We affirm.
The district court properly granted summary judgment on Jackson’s
Title VII race discrimination claim because Jackson failed to exhaust her
administrative remedies. See B.K.B. v. Maui Police Dep % 276 F.3d 1091,1100
(9th Cir. 2002) (Title VII plaintiff must exhaust administrative remedies by filimg a
timely EEOC or state agency charge, and allegations not included in an EEOC
charge * may not be considered by a federal court unless the new claims are like or
reasonably related to the allegations contained in the EEOC charge” (citations and
internal quotation marks omitted)).
The district court properly granted summary judgment on Jackson’s
42 U.S.C. § 1981 race discrimination claim because Jackson failed to raise a
genuine dispute of material fact as to whether the alleged discrimination was the
result of an official policy, a long-standing practice or custom, or a decision of a
final policymaker. See Fed’n ofAfrican Am. Contractors v. City of Oakland,
96 F.3d 1204,1215-16 (9th Cir. 1996) (policy and custom requirement set forth
in Monell v. Department ofSocial Services, 436 U.S. 658,690-91 (1978), applies
to § 1981 claims).
The district court properly dismissed Jackson’s claim under the Family and
Medical Leave Act (“FMLA”) because Jackson failed to file her FMLA claim
within the two-year limitations period, and failed to allege facts sufficient to show

2

19-16575

■M>

. • v»-r» uu, uwcmiy. 10-1, rage <s ot 3

3a

that the three-year limitations period for a willful violation of the statute applied.
to Hebbe v. Ptiler, 627 F.3d 338,341-42 (9th Cir. 2010) (standard of review;
although pro se pleadings are liberally construed, a plaintiff must allege facts
sufficient to state a plausible claim); see also 29 U.S.C. § 2617(c) (setting forth
two-year limitations period in which a plaintiff may bring a civil action and threeyear limitations period for an action brought for a “willful violation” of the
FMLA).
We do not consider matters not specifically and distinctly raised and argued
in the opening brief, or arguments and allegations raised for the first time on
appeal. See Padgett v. Wright, 587 F.3d 983,985 n.2 (9th Cir. 2009).
AFFIRMED.

3

19-16575

4a

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF CALIFORNIA

JUDGMENT IN A CIVIL CASE

ROBIN E. JACKSON,
v.

CASE NO: 2:16-CV-00920-MCE-DB

COUNTY OF SACRAMENTO

IrvSEeta°lF HEAL™ AND HUMAN

XX - Decision by the Court. This action came to trial or hearing before the Court The is
sues
have been tried or heard and a decision has been rendered.

IT IS ORDERED AND ADJUDGED

,N ACC0RDANCE wi™ ™e

Marianne Matherly
Clerk of Court
ENTERED: August 6, 2019
bv: /s/ H Hnarjg

Deputy Clerk

]

5a

2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT

9

FOR THE EASTERN DISTRICT OF CALIFORNIA

10
11

ROBIN E. JACKSON,

12

No. 2:16-cv-0920 MCE DB PS

Plaintiff,

13

v.

14

ORDER

COUNTY OF SACRAMENTO
DEPARTMENT OF HEALTH AND
HUMAN SERVICES, et al„

.15
16

Defendants.

17
18
19

WaintiSFis proceeding in this action pro se. The matter was referred to a United States
Magistrate Judge pursuant to Local Rule 302(c)(21).

20
21
22

On May 29,2019, the magistrate judge Bled findings and recommendations herein

which
were served on all parties and which contained notice to all parties that any objections to the

23

findings and recommendations were to be filed within fourteen days after service of the find,'
mgs
and recommendations. Plaintiff has filed objections to the findings and recommendations.

24

The court has reviewed the file and finds the findings and recommendations to be

25

supp°rted by the record and by the magistrate judge’s analysis.

26

////

27

////

28

////

I

6a

Accordingly, IT IS HEREBY ORDERED that:
2

i

3
4
5

1. The findings and recommendations filed May 29, 2019 (EOF No. 81) are ADOPTED
in full;
2. Defendant’s Januaty 22,2019 motion for summary judgment (EOF No. 65) is
GRANTED;

6

3. Judgement is entered for defendant; and

7

4. This action is closed.

8

IT IS SO ORDERED.

9

Dated: August 6,2019

"“7

(TV" )

10
11

MORRISON C. ENGLAND. JR )/
UNITED STATES DISTRJCmUDG

12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
2

1

7a

2
3
4
5

6
7
8

UNITED STATES DISTRICT COURT

9

FOR THE EASTERN DISTRICT OF CALIFORNIA

10
11

ROBIN E. JACKSON,

12
13
14
15
16

No. 2:16-CV-00920 MCE GGS PS

Plaintiff,
v.

FINDINGS AND RECOMMEND ATIONS

COUNTY OF SACRAMENTO
DEPARTMENT OF HEALTH AND
HUMAN SERVICES et al.,
Defendants.

17
18
19

INTRODUCTION AND SUMMARY
Pro se cases linger far too long in the pleading stage. This case exemplifies the problem.

20

Complaints are amended, motions to dismiss are generated, and the cycle repeats itself.

21

Erroneous defendants are sued and various claims contain references within themselves to several

22

other discrete claims. Claims are repeated in different claims. Evidentiary exhibits are attached to

23

the complaint. If a plaintiff has a potentially meritorious claim, but simply does not know how to

24

state it, who to sue, etc., the merits never see the light of day in any time frame which does credit

25

to our system of justice.

26

Therefore, to the extent possible, this will be the last step in the pleading process. Those

27

claims which can now go forward, giving the pro se plaintiff the benefit of the doubt, will go

28

forward; those claims which are not, and cannot be stated correctly, should be dismissed. In sum,
1

n

8

8a

1

plaintiff s Causes of Action (Claims) 1,6 and 4 (Fourteenth Amendment) should go forward;

2

Causes of Action (Claims) 2, 3, 4 (FMLA),1 5, and 7, should be finally dismissed.

3
4

PROCEDURAL HISTORY
The Complaint was filed on May 2,2016. It contained a myriad of discrimination claims,

5

state law claims, and numerous parties. A motion to dismiss followed, and the undersigned

6

issued a comprehensive order On April 17, 2017 dismissing plaintiffs original Complaint with

7

leave to amend, ECF No. 19. The order discussed the pleading standard under Federal Rule of

8

Civil Procedure 8, and instructions were given regarding how to conform to it and provided some

9

guidance with regard to the substantive pleading requirements that apply to various of her causes

10
11

of action (claims).
Plaintiff, appearing in pro se, then fried her First Amended Complaint on May 18, 2017.

12

ECF No. 20. Defendant County of Sacramento Department of Health and Human Services

13

[“County”] filed a Motion on June 16,2016 on behalf of all of the parties,2 to Dismiss under Rule

14

12(b)(6), and in certain respects, 12(e) for more definite statement. ECF No. 21. Plaintiff filed

15

an Opposition to the Motion on July 20, 2017, ECF No. 23, and defendants fried a Reply on July

16

27,2017. ECF No. 25.

17
18

FACTS
The plaintiff has not changed her factual allegations appreciably since so the court issued

19

its Order of April 17,2017, ECF No. 19; the undersigned will state them only briefly here for

20

context purposes.

21

Plaintiff was hired by the County on January 18,2005 as a Health and Human Services

22 | Social Worker assigned to The County’s Children Protective Services Department, ECF No. 20 f
23

15, and was terminated on October 13,2013. Id, at f 16. Plaintiff contends that her termination

24 1 was wrongful and in violation of federal standards and practices under: (1) 42 U.S.C. section

25 J 1981a(a)(l)(racial and age discrimination) ECF No. 20 at 12-13; racial and age discrimination
26
27
28

1 Plaintiff asserts two “Fourth” causes of action.
2 Plaintiff names a County agency, various unnamed County officials and Does 1-100 as
defendants.
2

9a

l
2
3
4
5

6
7
8

9
10
11

12

under 42 U.S.C. section 20O0e-5(g)(l)(k), 29 IT.S.C.

section 621 (age), denial of Due Process of
Law under the Fourteenth Amendment to the federal Constitution,
violation of 29 U.S.C. section
2601, the Family and Medieval Leave Act [“FMLA”],
and Failure to Accommodate under the
Americans with Disabilities .Act [‘'ADA”], 42 U S C
section 12i01, etseq/ Before analyzing
the sufficiency of the foregoing, the court notes that plaintiff also puiports to plead
a cause of
action based on “Disparate Impact/Disparate Treatment.”
ECF 20 at 13. In its order of April 17,
2017, ECF No. 19 at 9:8-11, the Court ruled that there is no separate claim available for disp
arate
treatment and impact as these are simply legal theories under which
various discrimination claims
may be litigated, and directed her not to
attempt to replead them as a separate claim.
Defendants’ Motions
Defendants have moved to dismiss for failu

re 10 state a ctoim “"d« Rule 12(b)(6), and for
a more definite statement under Rule 12(e). The coun will no, sepamtely address the Rule 12(e)

13 I element of defendants” motion insofar as die more specific 12(b)(6) motion msolves the issue
14 | raised under that Rule.
15
16
17
18
19
20
21 J
I
23 I

LEGAL STANDARDS
In order to survive dismissal for fail
ure to state a claim pursuant to Rule 12(b)(6), a
complaint must contain more than a “formulaic recitati on
of the elements of a cause of action •”
rather i, must contain factual allegations sufficient*“mise a rightto relief above the
speculative
level.” Bell Atlantic Cora. v. Twomhly ssn rr q 544
545 (2007). “The pleading must contain
something more ... than ... a statement of facts that merely creates
a suspicion [of] a legally
cognizable right of action.” Id., quoting 5 C. Wright & A.
Mil]er> Federal Pmctir^ ^ p,-rrrrfll|r
§ 1216, pp. 235-236 (3d ed.2004). “(A] complaint must contain sufficient fa
ctuai matter,
accepted as true, ,o ‘state a claim to relief that is plausible on its face.
Ashcroft v. Ighai 556
U.S. 662,678 (2009) (quoting Twombly, 550 U.S.
at 570). “A claim has facial plausibility when
the plaintiff pleads factual content that allows the c
ourt to draw the reasonable inference that the
9

24 I
25 J

26 A -———-------------- -----

3

CC

?

5

I

10a
defendant is liable for the misconduct alleged.” Id.

2

Pro se pleadings are held to a less stringent standard than those drafted by lawyers. Haines v.

3

Kerner, 404 U.S. 519, 520 (1972). Pro se complaints are construed liberally and may be

4

dismissed only if it appears beyond doubt that the plaintiff can prove no set of facts in support of

5

his claim which would entitle him to relief. Nordstrom v. Rvan. 762 F.3d 903, 908 (9th Cir.

6

2014). A pro se litigant is entitled to notice of the deficiencies in the complaint and an

7

opportunity to amend, unless the complaint’s deficiencies could not be cured by amendment. See

8

NoM v. Carlson, 809 F.2d 1446,1448 (9th Cir. 1987). It is also true, however, that the court need

9

not accept as true legal conclusions cast in the form of factual allegations, or allegations that

10

contradict matters properly subject to judicial notice. See Western Mining Council v. Watt. 643

11

F.2d 618, 624 (9th Cir. 1981); Sprewell v. Golden State Warriors. 266 F.3d 979,988 (9th Cir.), as

12

amended, 275 F,3d 1187 (2001).

13
14
15

DISCUSSION
A.

42 U.S.C. section 1981 Claims (First and Sixth Causes of Action)4
Defendant’s motion addresses race discrimination claims based on 42 U.S.C. section

16

1981, but only insofar as they request clarification of the claim pursuant to Fed. R. Civ. P. 12(e).

17

See First and Sixth Causes of Action (Claims).

18

With respect to race/ethnicity, the elements of Title VII and § 1981 are indistinguishable

19

in the employment (contract) context. Johnson v. Riverside Healthcare System. 534 F.3d 1116,

20

1122(n.3) (9th Cir.2010); Jurado v, Eleven-Fifty Corp.. 813 F.2d 1406,1412 (9th Cir.1987).

21

At this point it is safe to find that plaintiff has stated sufficient facts, albeit in a confusing

22

format, to sustain this claim. She alleges differences in the way she, as an African American

23

female, was treated differently in several regards including, among others, the following:

24
25

1.

A supervisor commented that “all Black social workers should work in the fields

and white social workers should work only in the office.” ECF No. 20 at fl 13, 19,20;

26
27
28

Plaintiff’s listed claims in the FAC caption are out of sync with many of the claims set forth in
the text of the FAC. The undersigned has disregarded the caption and adjudicates this motion
based upon the stated claims in the text.
4

11a

1

2.

She was treated differently, and less supportively, than a white social worker in

2

relation to the condi tions for an FMLA leave to care for her mother who suffered from dementia,

3

id, atf 17;

4

3.

She was reassigned during a budget cut although she was not on the reassignment

5

list while a white social worker who was on the list was not reassigned when she indicated she

6

did not wish to be reassigned, id, at! 29;

7
8

4.

A white acting supervisor refused to proofread her court reports before they were

submi tted to the court, id, at 32, shortly aftei she received a Counselling Memorandum for being

9 | late with said reports, id. at fj[ 31, 32;
10

5.

The veracity of her claim to holding a Master’s Degree was challenged and she

31 II learned that other employees in a similar situation were not challenged, id, at f 35;
12

6.

Her pay was held up on two different occasions when a supervisor failed to

13 J approve her timesheets while all white social workers had their time sheets approved and they
14 I were paid on time, id at! 36;
15

7.

She and another black social worker were instructed to transport a black youth

16 | who had done damage to the Sacramento Children’s Home to Juvenile Hall but the supervisor and
17 ft the Home refused allow the transport on the basis it was unsafe for both the workers and the
38 J youth, id, at f 37.
19

As stated, the foregoing are exemplary, not necessarily exhausti ve of plaintiffs allegations

20 J regarding her Section 1981 (and Title VII) discrimination claim. The court understands that the
21 j gravaman of the claim is that she was ultimately terminated based on, inter alia

, race
22 J discrimination. That is, such is the adverse action of which plaintiff is concerned.
23

Defendants assert confusion because plaintiff intermixes the Section 1981 claim with the

24 J Title VII claim. They point to some typographical errors as well in plaintiffs reference to Title
25 J VII. Although defendants are correct, the substantively identical section 1981 claims (and Title
26 || VII claims) are clear enough.
27

Therefore, although the court has some doubt that the parties to the Section 1981 claim(s)

28 J have been adequately identified, see Fed. Of African American Contractors v. City of OaklnnH
5

12a
1

96 F.3d 1204 (9th Cir. 19S>c5>, these claims shall go forward.

2

amendment here insofar as defendants have sufficient noti

3
4
5

Thereis dimply no point to further
ce of the claims. No furthe
r motions t
dismiss will be permitted or* these claims. Should deficiencies
exist, those deficiencies may be
addressed on motion for summary judgment (and only
one motion for su
mmary judgment will b<
entertained).

6

B-

7

The court has already ruled that this clai
im cannot stand as it misconst
rues an evidentiary
theory for a claim. This claim should, therefore,
be dismissed without leave to
.
amend. It must be
noted, however, that plaintiff’s c ompiaint
is dfe with actions of a ,o„g and repeated pattern

8
9

Disparate Impact/Date Trento*,* xy •m
(SMrdCguse ofArtinr,t

10

the different treatment of black

11

whatever discrimination claims exist going forward,

12

theory of disparate treatment.

13

versus while employees. Thisevide

they could be brought in a section 1981 claim

15

Accordingly, this claim set forth as the

16
17

c-

19

because plaintiff never expressly asserted such

22
23
24
25
26

Third Cause of Action should be dismissed

•andSjxth Causes of Anting5

insofar as it is based on race discrimination,

a claim in her administrative filings.
Administrative exhaustion through the EEOC i
s a condition precedent to the fill
ng of a
Title VII action in court. Anderson_yj8engdict, 2012 WL 952863
*2 (E.D.Cal. 2012), The
EEOC charge must be filed within 180 d
ays of the last discriminatory act (or within 300 days in a
state, such as California, which has its
own anti-discrimination laws
and agency. 42 U.S.C.
§2000e-5(e)l. When the agency issues a right to s
Ue letter’ tbe plaintiff then has 90 d
ays to file a
complaint in the federal court. 2 U.S.C.
section 2000e-5(f)(l), Of courae, the claim in federal
court must have been fairly set forth as a basis in th

27
28

set forth in the FAC,

even assuming that
(and they cannot) or a Title VII claim.

Title VII Claim (Race Discriminate..) fpint
Defendant moves to dismiss this claim,

21

m on a

without leave to amend.

18

20

e.g., section 1981 discrimination clai
No facts regarding disparate impact have been

14

nee may be pursued in

5 The Title VII claims are interspersed in th

e administrative claim for each of

e text with Section 1981 claims.

13a

1

complainant’s court claims, i.e., “can reasonably be expected to grow out of tbe charge.”

2

Rodriguez v. Airborne Express, 265 F.3d 890,897 (9th Cir. 2001) (refusing to find that an

3

ethnicity discrimination charge in the administrative complaint would include a disability

4

discrimination claim.)

5

Defendants attach the entire amended complaint to their motion, including Exhibits A and

6

B, the Exhibits which contain portions of the record before the EEOC and FEHA. Defendants

7

cite to a page of Exhibit A which recounts the plaintiffs allegations: discrimination because of

8

age, disability and sex.6 The problem here is that the recounting is done by the Sacramento

9

defendant agency in its response to the allegations’, there are no pages comprising the

10

administrative complaints themselves. Nor do the EEOC decisions themselves set forth the

11

allegations.

12

It may well be that defendants’ characterization of plaintiffs allegations are 100%

13

accurate, or even a quote. It also may well be that the legal discussion by defendants on the need

14

to specifically identify the bases for bringing the administrative claim is spot on. Finally, it might

15

well be the case to continue the Title VII claim only to receive the actual allegations will be waste

16

of time. Nevertheless, in order to dismiss the Title VII claim on the basis of a lack of exhaustion,

17

the filed complaint must be reviewed, not simply the response to it. The undersigned cannot rule

18

out the possibility (having reviewed the FAC in this case) that race is mentioned in some area of

19

the administrative complaint, but perhaps not in the introductory paragraphs.

20
21
22

The matter can easily be cleared up through discovery and a submission of the actual
administrative complaint on summary judgment.
For the same reasons that the undersigned found the Section 1981 racial discrimination

23

allegations sufficient enough to proceed, the undersigned finds similarly for the Title VII

24

allegations.

25
26

Plaintiff was previously advised that the only proper party for Title VII discrimination
claims was the entity for which plaintiff worked. Miller v. Maxwell’s International Inc.. 991 F.2d

27
28

6 Although plaintiff’s administrative complaints referenced sex discrimination, such an allegation
is not made in the FAC.
7

*

14a
1

583, 587 (9th Cir. 1993); Romain v.Shear, 799 F.2d 1416,1417 (9th Cir. 1986). Plaintiff has

2

sued several defendants including Does 1-100 who are individuals that plaintiff thinks may be a

3

part of this lawsuit at some time FAC at p.4, Para. 7. Therefore, all defendants other than the

4

County of Sacramento, should be finally dismissed for the Title VII federal discrimination claims.

5

D.

6

Age Discrimination Claim (Second Cause ofAction)
To pursue a private ADEA claim in federal court, a plaintiff must comply with the

7

administrative exhaustion requirements of 29 U.S.C. § 626. As in Title VII cases, “substantial

8

compliance with the exhaustion requirement is a jurisdictional pre-requisite... [and] [tjhe

9

jurisdictional scope of the plaintiff's court action depends on the scope of the EEOC charge and

10

investigation.” Leong. v. Potter, 347 F.3d 1117,1122 (9th Cir.2003). “Exhaustion of

11

administrative remedies is a condition precedent to the filing of an action under the ADEA in

12

federal court.” Parisi v. Boeing Co., 400 F.3d 583,585 (8th Cir.2005). In California, a “deferral”

13

state (29 U.S.C. § 633(b)), these exhaustion requirements include the filing of an age

14

discrimination charge with the California Department of Fair Employment and Housing

15

(“DFJ2H”) within 300 days of the alleged unlawful practice. See 29 C.F.R. 1626.7. Filing with

16

the DFEH is deemed to be a filing with the EEOC and vice versa. McConnell v. General

17

Telephone Co. of California, 814 F.2d 1311,1316 (9th Cir.1987); see also 29 C .F.R. §

18

1626.10(c) (“charges received by one agency ... shall be deemed received by the other agency for

19

purposes of § 1626.7”). There is no dispute that the plaintiff met the exhaustion requirement for a

20

claim of age discrimination.

21

The ADEA makes it unlawful for an employer “to fail or refuse to hire or to discharge any

22

individual or otherwise discriminate against any individual with respect to his compensation,

23

terms, conditions, or privileges of employment, because of such individual’s age.” 29 U.S.C. §

24

623(a)(1). These prohibitions apply to “individuals who are at least 40 years of age.” 29 U.S.C.

25

§ 631(a). The ADEA makes it unlawful for an employer “to fail or refuse to hire or to discharge

26

any individual or otherwise discriminate against any individual with respect to his compensation,

27

terms, conditions, or privileges of employment, because of such individual’s age.” 29 U.S.C. §

28

623(a)(1). These prohibitions apply to “individuals who are at least 40 years of age.” 29 U.S.C.
8

15a
1
2
3
4
5
6
7
8
9

§ 631(a); see also Coleman v. Quaker Oats Co.. 232 F.3d 1271,1280 (9th Cir.2000).
A plaintiff alleging discrimination under the ADEA may proceed under two theories of
liability: disparate treatment or disparate impact. Proof of disparate treatment requires a
showing that the employer treats a person, here plaintiff, less favorably than others
because of their age. In contrast, discriminatory motive or intent need not be shown under
a disparate impact theory, which challenges facially neutral employment practices which
have a discriminatory impact. However, under the latter theory the plaintiff must actually
prove the discriminatory impact at issue, rather than merely an inference of discriminatory
impact.
Rose v. Wells Fargo & Co., 902 F.2d 1417,1421 (9th Cir.1990) {citations omitted).
Plaintiff here has alleged both disparate impact and disparate treatment as a separate cause
of action which this court has already ruled is improper. ECF No. 19 at 9:8-11 On the basis of

10

what she has alleged, however, only disparate treatment seems appropriate as a theory in this case

11

if the age discrimination claim turns out to have any resonance at all.

12

Defendants seek dismissal of this claim on the ground that the Amended Complaint fails

13

to state any salient facts in support of the claim that her dismissal was based, in some part, on her

14

age. ECF No. 21 at 13. In so doing they argue that the complaint fails to meet the plausibility

15

standard established in Iqbal, supra.

16

A review of plaintiff s allegations discloses only two mentions of age. First, she alleges

17

that she is a 59-year old Black: female. ECF 20 at f 11. At paragraph 62 she refers to herself as

18

an African American over 40 years of age. Her statement of the Second Cause of Action, which

19

is based upon age discrimination adds no additional facts and merely make the conclusionary

20

allegation that the age discrimination of which she complains flowed directly from her

21

participation in “protected activity” — presumably her complaint to the Equal Employment

22

Opportunity Commission [“EEOC”]. Id. at fjf 71-74.

23

In short, the foregoing effort to plead facts to support an ADEA claim does not reach the

24

level of plausibility required by Twomblv v. Bell Atlantic Corp.. 550 U.S. 544 (2007). This court

25

has held that this decision and those which followed “have recognized that the elements of a

26

prima facie case are ‘relevant to the court’s analysis of the sufficiency of the complaint.’”

27

Manzoor v. Travis Credit Union. 2012 WL2921380 *3 (E,D.CaI. 2012) quoting O’Donnell v.

28
9

16a

1

U.S. Bancorp Equipment Finance, Inc.. 2010 WL 2198203 at *3 (N.D. Cal. 2010). See also

2

Sablan v. A.B. Won Pat Int’l Airport Authority. 2010 WL 5148202 at *4 (D.Guam 2010).

3

Nothing of substance has been pleaded in the FAC
However, as previously referenced, attached to plaintiff s complaint and reproduced in the

4
5

Motion to Dismiss are a number of Exhibits. Even if the undersigned could review defendant’s

6

recounting of the allegations for purposes of determining whether amendment was possible, the

7

allegations are far from sufficient.
One of the documents, marked as Exhibit A to defendant County’s Motion to Dismiss,

8
9

contains the County’s response to plaintiffs EEOC complaint, and states the Complainant’s

10

allegations as follows: “[o]n or about February 2013, during my monthly staffing with Mrs.

11

Chambers, she made a statement that the job responsibilities have changed, then Ms. Chambers

12

stated to me that he was looking for another job for me because the job was getting hard.” ECF

13

21-1 at 27. Further the document adverts to a statement by plaintiff to the EEOC that “[on or

14

about 27 February 2013, during a unit meeting, my supervisor - Mrs. Marina Chamber asked me

15

how many years before I retire from Respondent.” Id. at 29. When given a chance to expand on

16

these sparse facts when she responded to the pending motion, however, the only substantive

17

statement plaintiff made was that Stephen Wallach had told her when she complained about what

18

she saw as unacceptable behavior by her supervisor that she should “understand that my

19

supervisor would treat a worker closer to her own age better because they have more in common

20

with them.” ECF No. 23 atf 27. She apparently does not know if the person who ultimately

21

replaced her was younger than she, but does state in that same opposition document that she

22

“believes” that is the case “because why would the Defendants hire a 55 year old person.” ECF

23

No. 23 atf 29.7 These allegations are woefully insufficient.
Plaintiff has had two opportunities to plead an age discrimination claim, and has not come

24
25

close. The undersigned thinks such is enough. No further amendment attempts should be

26

allowed.

27
28

7

At the time of her termination, plaintiff herself would have been a 55-56 year old person.
10

•f

17a
1

E.

Failure to Accommodate Disability (ADA) (Fifth Cause of Action)

2

This claim has no substance to it at all and fails under the Twomblv and Iqbal standards

3

discussed above. Plaintiff raises the fact that she had been hospitalized twice in 2007, ECF No.

4

20 at '121, and received an ADA accommodation for chest pains in 2008. IdL at f 22. In March

5

2013 she complained of chest pains while requesting an FMLA leave to care for her mother, and

6

visited with her cardiologist while on leave. Id. at f 42. Apparently her ADA claim rests on her

7

assertion that the supervisor should have advised her to seek medical care and, perhaps, to seek a

8

disability leave when she advised the supervisor of the chest pains. There is no authority,

9

however, for the concept that an employer must intervene in such a manner which would, to say

10

the least, be more than a little intrusive. The court’s research has not disclosed even a suggestion

11

of such a responsibility on the part of an employer based on a single comment from an employee,

12

and plaintiff does not claim that she asked for either a disability leave or a disability

13

accommodation on account of her own health problems at that time. For this reason this claim

14

will be recommended for dismissal without leave to amend.

15
16

F.

FMLA Claim (Fourth Cause ofAction)
Under the FMLA any employee with at least 12 months service and at least 1,250 hours of

17

service with the current employer during the previous 12 month period is eligible for leave under

18

the Family Medical Leave Act [“FMLA”]. 29 U.S.C. § 2611. Plaintiff meets these criteria. One

19

basis of eligibility for such a leave, up to 12 workweeks during any 12-month period, 29 U.S.C. §

20

. 2612(a)(1), is when it is needed in order to care for, among others, a parent of the employee if

21

that parent has a serious health condition. |d at (1)(C), An employer may require that any

22

request for leave be supported by a certification issued by a health care provider for the person on

23

whose behalf the leave is taken. Id. at 2613(a). If the employer doubts the validity of a

24

certification it may, at its expense, require that the employee obtain a second opinion from a

25

provider designated or approved by the employer, and a third such opinion if the first two

26

disagree. Id at 2613(c)(1). It is unlawful for an employer to interfere with, to restrain or to deny

27

an employee’s exercise or attempt to exercise the rights granted in the law. 29 U.S.C. § 2615.

28

The remedies available for violation of the Act include money damages and, where appropriate,
11

*

*!

18a
1

equitable relief including reinstatement of employment, 29 U.S.C. § 2617, and the complainant

2

may bring an action to enforce the rights granted in any Federal or State court of competent

3

jurisdiction. Id. at (a)(2).

4

In the moving papers defendants explain that although plaintiff got the certification

5

required i n order to obtain leave to take care of her mother, who was in a nursing home and

6

suffering from dementia, the physician who provided it withdrew the certificate when she learned

7

that plaintiff had not brought her mother to her home for her continued care. ECF No. 21 at

8

20:10-18. They challenge the sufficiency of plaintiffs claim on grounds that her failure to

9

provide sufficient medical certification sufficed to support the suspension of leave and her

10

termination for using the leave for purposes other than intended, i.e., she did not bring her mother

11

home. Id. atl7:12-18:5. They also argue that the claim is barred by the applicable statutes of

12

limitations which are two years after occurrence of the claimed interference or three years if that

13

interference was “willful” insofar as the employer “knew or recklessly disregarded whether its

14

conduct violated the statute. Id. at 21:5-16.8

15

Statute of Limitations

16

Although the undersigned disagrees with defendants that plaintiff has not, under the fairly

17

lenient standards associated with a motion to dismiss, substantively stated a claim for ordinary or

18

willful breach of the Family Medical Leave Act (FMLA), it does appear that the statute of

19

limitations for FMLA claims expired prior to the time plaintiff filed her lawsuit in this court.

20

This is true for either the “ordinary” FMLA violation or the “willful” violation.

21

Plaintiff alleges that on April 22,2013, she was informed by her supervisor that her

22

FMLA leave had been revoked, she was considered AWOL, and she was thereafter on

23

administrative leave. Although the FAC references further conversations where plaintiff

24

attempted to convince her superiors otherwise, and she was finally terminated, in part, because of

25

found abuse by her agency of the FMLA, the event which triggered the alleged breach of the

26
27
28

8

Defendants have provided sufficient case law to support each of their arguments in isolation,
i.e., without consideration of the unique facts alleged by plaintiff, and the court will therefore not
recount that authority here.
12

19a

1

FMLA was not the termination of plaintiff s employment but rather the April 22,2013 event.

2

The case which disposes of this issue is defendants’ cited case of Hanger v. Lake Countv.

3 I 390 F.3d 579 (8th Cir. 2004). The statute of limitations for an ordinary violation of the FLMA is
4

two years; a willful violation has a limit of three years. Id citing 29 U.S.C. §§ 3617(c)(1) and

5

2617(c)(2) respectively. Importantly, it is the time of the FMLA breach alleged (here, the first

6

and last event of plaintiff s FMLA leave being terminated and her then A WOL status) which

7 1 commences the limitations period. Further, the later administrative effects of the finding that
8

plaintiff had abused her FMLA leave, i.e., her subsequent termination, does not cause the accrual

9 II period to change. Hanger at 583; see also Barrett v. Illinois Dept, of Col l ections. 803 F.3d 893,
10 J 894-896; Hillstrom v. Best Western TLC Hotel. 354 F.3d 27, 33 (lsl Cir. 2003).
11

Finally, plaintiffs actions in initiating EEOC administrative proceedings for alleged

12 | discrimination does not toll the FMLA limitations period, as no EEOC exhaustion is required for
13

the FMLA claim. Medlock v. Fred Finch Children’s Home. 2014 WL 4756055 *6 (N.D.Cal.

14 I 2014) (and cases cited therein). See also Ramsey v. Advance Stores Co. Inc, 2015 WL 3948119
15 J *5) (D. Kan. 2015) (and cases cited therein). See generally. Johnson v. Railway Express Apenny
16 J 421 U.S. 454, 465-66 (1975) (administrative proceedings related to a Title VII action does not toll
17 I the limitations period for a 42 U.S.C. section 1981 action). While an employer’s deception in
18 J terms of advising plaintiff not to file suit, or otherwise causing her not to file suit, could be
19

grounds for tolling the limitations period, Blackman-Bahams v. Jewell 2016 WL 1029587 (N.D.

20 | Cal. 2016), no such activity is alleged here.
21
22

Plaintiffs complaint was filed May 2, 2016. This date was over three years from April 22,
2013. Thus, either variety of FMLA violation is time barred (although the willful violation by

23 I only a few days).
24

25 II
la

The FMLA claim should be dismissed.

26

Fourteenth Amendment Claim, ('’Fourth" Cause ofAction: this number is adunlicatr. in
the FAC)
----------

27

Plaintiff describes her Fourteenth Amendment due process claim on the caption page of

28 J hC1 comP^nt as “141,1 Amendment Due Process Violation (Failure to Properly Inform) FEHA13

if

t

20a
1

Government Code Section 12940, et Seq.” [sic]. However, the text of her claim within the body

2

of the FAC is much clearer—she alleges only a deprivation of meaningful hearing Fourteenth

3

Amendment claim.

4

Claims brought under the Fourteenth Amendment alleging that plaintiff was

5

unconstitutionally discharged from employment requires that the plaintiff show she had a

6

property right in continued employment for, if she did, the State cannot deprive her of this

7

property right without providing due process. Cleveland Bd. of Educ. v, Loudermill. 470 U.S.

8

532,538 (985). Such property interests are not inherent in the Constitution, but rather “stem from

9

an independent source such as state law.” Board of Regents v. Roth. 408 U.S. 564. 577 (1976).

10

In Skellv v. State Personnel Bd.. 15 Cal.3d 194,206-207 (1975), the California Supreme

11

Court held that state law conferred a property interest in employment for public employees who

12

had reached the status of “permanent employee” (as opposed to probationary status). It further

13

held that in order to satisfy due process an agency considering disciplinary action against a public

14

employee must accord the employee certain “procedural safeguards,” including “notice of the

15

proposed action, the reasons therefor, a copy of the charges and materials upon which the action

16

is based, and the right to respond, either orally or in writing, to the authority initially imposing

17

discipline. Id. at 215. ‘The Supreme Court’s directive gave rise to a administrative procedure

18

known as a Skelly hearing, in which an employee has the opportunity to respond to the charges

19

based upon which the proposed discipline is based,” Flippin v. Los Angeles City Bd. of Civil

20

Service Com’rs. 148 Cal.App.4th 272,280 (2007). These state protections support plaintiff s

21

procedural due process claim.

22

The California courts have also recognized that “Due Process is a ‘flexible concept.”

23

Gilbert v, City of Sunnyvale. 130 Cal.App.4th 1264,1275 (2005). The “essence” of the due

24

process right in the present context is that public employees are entitled not only to notice of the

25

nature of the charges that led to the discipline proposed, but also the substance of the relevant

26

supporting evidence and *‘a meaningful opportunity to respond!” prior to discharge. Gilbert at

27

1278), citing Arnett v. Kennedv.416 U.S. 134,170 (1974) (Powell, J concurring). Plaintiffs

28

claim that she was prevented from responding to the primary charge against her regarding the
14

21a
1

conditions of her FMLA leave by discussing the condition of her mother and the steps she was

2

taking to protect her, essentially amount to a claim that she did not have a meaningful opportunity

3

to meet the charges,9 which is enough to preserve this claim. See ECF 20 at f96(a). In the

4

balance of her claim on due process grounds she also challenges the impartiality of the hearing

5

office and the failure to provide her an opportunity to review the evidence against her. Taken

6

together these allegations could be seen by a factfinder as a denial of a meaningful opportunity to

7

be heard by the ultimate factfinder. Thus this claim, however problematic it may turn out to be,

8

should go forward at this point.

9

H,

State Law Claims (Seventh Causes of Action)

10

Plaintiff was previously advised of the necessity of filing a state administrative claim in

11

order to proceed on the state law claims found in her Complaint. Order at 7. Exhaustion of the

12

state requirement that a claim must be filed with the accused entity and denied before a suit may

13

be brought in court is a jurisdictional prerequisite and therefore the absence of a properly filed

14

and determined tort claim denies this court the jurisdiction to entertain an action on those

15

unexhausted claims. Goethe v. California Department of Motor Vehicles 900« wr

16

(E.D.Cal. 2008); see also Brown v. Puget Sound Elec. Apprenticeship & Training Trust 732 F.2d

17

726,729-730 (9th Cir. 1984)(re parallel Hawaiian requirement). Thus the court should dismiss

18

the state claims here without leave to amend for failure to exhaust the administrative remedy the

19

State has provided under the State Tort Claims Act. Evans v. CSP Sacramento 2011 WL

20

5593077 (E.D.Cal. 2011). Further, these claims should be dismissed without leave to amend.

21
22

CONCLUSION
Causes of action (Claims) 1, 6, and 4 (Fourteenth Amendment) should proceed and

23

defendants be required to answer said claims; however, only the County of Sacramento is the

24

proper defendant for the Title VII claim; Causes of Action (Claims) 2, 3,4 (FMLA), 5 and 7

25
26
27
28

In their moving papers defendants truncate the due process issue to the requirements for notice
and opportunity to be heard, which they aver plaintiff admits she received, and leave out the
qualifying of the term “opportunity” by the term “meaningful.” Citing LoudermiH. supra, at 545. The absence of the term “meaningful” from the analysis of the right conferred would reduce
.euCOnJePtrof P>'edeprivation hearing to a meaningless, rote procedure which clearly is not what
either the United States or the California Supreme Court intended.
15

22a
1
2

(State claims) should be dismissed without leave to amend.
These findings and recommendations are submitted to the United States District Judge

3

assigned to the case, pursuant to the provisions of 28 U.S.C. § 636(b)(1). Within twenty-one days

4

after being served wi th these findings and recommendations, any party may file written

5

objections with the court and serve a copy on all parties. Such a document should be captio

6
7

Objections to Magistrate Judge’s Findings and Recommendations.” Any reply to the objections
shall be served and filed within fourteen days after service of the objections. The parties are

8

advised that failure to file objections within the specified time may waive the right to

9

District Court’s order. Martinez v. Ylst. 951 F.2d 1153 (9th Cir. 1991).

10
11
12

DATED: October 30, 2017
/s/ Gregory G. Hollows
GREGORY G. HOLLOWS
UNITED STATES MAGISTRATE JUDGE

13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
16

ned

appeal the

%

1
23a

2
3
4
5

6
7
8

UNITED STATES DISTRICT COURT

9

FOR THE EASTERN DISTRICT OF CALIFORNIA

10

II

ROBIN E. JACKSON,

12
13
14

15
16

No. 2:16-cv-0920 MCE DB PS

Plaintiff,
v.

FINDINGS AND RECOMMENDATIONS

COUNTY OF SACRAMENTO
DEPARTMENT OF HEALTH AND
HUMAN SERVICES, et a!.,
Defendants.

17
18

Plaintiff Robin Jackson is proceeding in this action pro se. This matter was, therefore,

19

referred to the undersigned in accordance with Local Rule 302(c)(21) and 28 U.S.C. § 636(b)(1).

20

Pending before the undersigned is defendant County of Sacramento’s motion for summary

21

judgment pursuant to Rule 56 of the Federal Rules of Civil Procedure. (ECF No. 78.) For the

22

reasons stated below, the undersigned will recommend that defendant’s motion for summary

23

judgment be granted.

24

25

BACKGROUND
Plaintiff, proceeding pro se, commenced this action on May 2, 2016, by filing a complaint

26

and a motion to proceed in forma pauperis. (ECF Nos. 1. & 2.) The previously assigned

27

magistrate judge granted plaintiff’s motion to proceed in forma pauperis and ordered service on

28

defendant on July 7, 2016. (ECF No. 3.)
1

?

*

24a

1

On May 18, 2017, plaintiff filed an amended complaint. (ECF No. 20.) Therein, plaintiff

2

alleges that she is a “Black female who was employed by Department of Health and Human

3

Services, Children Protective Services for approximately 8.5 years, from January, 2005 until

4

October, 2013, as a Health and Human Services Social Worker Range B.” (Am. Compl. (ECF

5

No. 20) at 4. ')

6

On June 15, 2017, “supervisor Claudia Boyd” stated in a meeting “that the African

7

American social workers should work in the fields and the Caucasian social workers should work

8

only in the office ” (Id at 5.) Plaintiff filed a complaint with the Equal Employment Opportunity

9

Commission (“EEOC”) on June 28, 2007. (Id. at 6.) On March 18,2009, plaintiff was informed

10

by the EEOC that defendant demoted Claudia Boyd and transferred Boyd to “a different

11

Department from [plaintiff).” (Id)

12

In December of 2008, plaintiff was reassigned despite not being “on the reassignment list”

13

while a “Caucasian social worker” on the reassignment list was not reassigned. (Id.) In October

14

of 2011, a “Caucasian worker” caused plaintiff to cancel a flight after refusing “to proof read

15

[plaintiffs] court reports before they were submitted to court[.]” (Id at 7.) Thereafter, plaintiff

16

“accidentally received an e-mail” between two other supervisors which alleged that plaintiff “loss

17

(sic) her fucking mind” on the Caucasian employee. (Id) On December 28,2012, and January

18

25,2013, plaintiffs pay was delayed, while “four Caucasian Social Workers” did not have their

19

pay delayed. (Id.)

20

Additionally, plaintiff s mother suffers from dementia. (Id at 5.) On March 1,2013, the

21

facility that cares for plaintiff s mother notified plaintiff that the “cost was increasing[J” (Id at

22

8.) On March 6,2013, plaintiff requested “3 month of (FMLA) off from Program Supervisor

23

Stephen Wallach to care for [her] mother[.]” (Id at 9.) Wallach “stated that Plaintiff needed to

24

get approval from [plaintiffs] mother’s physicianf.]” (Id.) On March 14, 2013, “a Caucasian

25

Social worker” was given “a caseload reduction because her mother was ill,” which was never

26

offered to plaintiff. (Id.)

27

28

Page number citations such as this one are to the page number reflected on the court’s CM/ECF
system and not to page numbers assigned by the parties.
2

I

25a

t

“On March 15,2013 Plaintiff spoke to [her] mother’s physician Janice Rogers and
2

explained to her [plaintiff] needed 3 month (sic) off for (FMLA) to care for [plaintiffs]

3

mother[.]” (Id.) “Ms. Rogers approved [the] leave with the condition .... [that] Plaintiff had to

4

look into bringing her [mother] home.” QdJ “On April 8,2013,” plaintiff received a call from

5

Dr. Rogers expressing “surprise [plaintiff s] mother was not home yet.” (Id.)

6

On April 22, 2013, plaintiff was informed that she was being placed on administrative

7

leave after plaintiffs supervisor, Marina Chambers, received “a note from [plaintiffs] mother’s

8

physician stating that [plaintiffs] (FMLA) leave was cancelcdf.]” (JdJ at 10.) “On May 7, 2013,

9

Plaintiff had a meeting with Program Manager Stephen Wallach, Supervisor Marina Chamber,

10

[and] . .. union Representative John Bonilla to discuss the allegations of misrepresenting

11

[plaintiffs] (FMLA).” (Id.) At some point in time Wallach also discussed plaintiffs “over usage

12

of data on [plaintiffs] County issue I phone.” (Id.) On August 28,2013, plaintiff “had to pick up

13

the proposed dismissal packet[.]” (Id. at 11.)

14

On June 16,2017, defendant filed a motion to dismiss the amended complaint. (ECF No.

15

21.) On October 31, 2017, the previously assigned magistrate judge issued findings and

16

recommendations, recommending that the motion to dismiss be granted excepts as to the

17

amended complaint’s claims of racial discrimination in violation of Title VII of the Civil Rights

18

Act of 1964,42 U.S.C. § 2000e ef seq., and 42 U.S.C. § 1981, as well as a claim for violation of

19

the Fourteenth Amendment. (ECF No. 26.) The assigned District Judge adopted those findings

20

and recommendations in full on January 8, 2018. (ECF No. 36.) Defendant filed an amended

21

answer on February 15, 2018. (ECF No. 38.)

22

On October 30,2018, this matter was reassigned from the previously assigned magistrate

23

judge to the undersigned. (ECF No. 51.) Defendant filed the pending motion for summary

24

judgment on January 22, 2019. (ECF No. 65.) Plaintiff filed an opposition on March 15, 2019.

25

(ECF No. 75.) Defendant filed a reply on March 22,2019. (ECF No. 77.) The undersigned took

26

defendant’s motion for summary judgment under submission on March 25, 2019. (ECF No. 78.)

27

HU

28

HU
3

t

26a
1

STANDARDS

2

Summary judgment is appropriate when the moving party “shows that there is no genuine

3

dispute as to any material fact and the movant is entitled to judgment as a matter of law.” Fed. R.

4

Civ. P. 56(a). Under summary judgment practice, the moving party “initially bears the burden of

5

proving the absence of a genuine issue of material fact.” In re Oracle Coro. Securities Litigation.

6

627 F.3d 376, 387 (9th Cir. 2010) (citing Celotex Corn, v. Catrett, 477 U.S. 317, 323 (1986)).

7

The moving party may accomplish this by “citing to particular parts of materials in the record,

8

including depositions, documents, electronically stored information, affidavits or declarations,

9

stipulations (including those made for purposes of the motion only), admission, interrogatory

10

answers, or other materials” or by showing that such materials “do not establish the absence or

11

presence of a genuine dispute, or that the adverse party cannot produce admissible evidence to

12

support the fact.” Fed. R. Civ. P, 56(c)(1)(A), (B). When the non-moving party bears the burden

13

of proof at trial, “the moving party need only prove that there is an absence of evidence to support

14

the nonmoving party’s case.” Oracle Coro.. 627 F.3d at 387 (citing Celotex. 477 U.S. at 325); see

15

also Fed. R. Civ. P. 56(c)(1)(B).

16

Indeed, summary judgment should be entered, after adequate time for discovery and upon

17

motion, against a party who fails to make a showing sufficient to establish the existence of an

18

element essential to that party’s case, and on which that party will bear the burden of proof at

19

trial. See Celotex. 477 U.S. at 322. “[A] complete failure of proof concerning an essential

20

element of the nonmoving party’s case necessarily renders all other facts immaterial.” Id. In

21

such a circumstance, summary judgment should be granted, “so long as whatever is before the

22

district court demonstrates that the standard for entry of summary judgment... is satisfied.” jd,

23

at 323.

24

If the moving party meets its initial responsibility, the burden then shifts to the opposing

25

party to establish that a genuine issue as to any material fact actually does exist. See Matsushita

26

Elec. Indus. Co. v. Zenith Radio Coro.. 475 U.S. 574, 586 (1986). In attempting to establish the

27

existence of this factual dispute, the opposing party may not rely upon the allegations or denials

28

of its pleadings but is required to tender evidence of specific facts in the form of affidavits, and/or
4

27a
1

admissible discovery material, in support of its contention that the dispute exists. See Fed. R.

2

Civ. P. 56(c)(1); Matsushita. 475 U.S. at 586 n.ll. The opposing party must demonstrate that the

3

fact in contention is material, i.e., a fact that might affect the outcome of the suit under the

4

governing law, see Anderson v. Liberty Lobby. Inc.. 477 U.S. 242, 248 (1986); T.W, Elec. Serv..

5

inc. v. Pacific Elec. Contractors Ass’n. 809 F.2d 626, 630 (9th Cir. 1987), and that the dispute is

6

genuine, i.e., the evidence is such that a reasonable jury could return a verdict for the nonmoving

7

party. See Wool v. Tandem Computers. Inc.. 818 F.2d 1433, 1436 (9th Cir. 1987).

8

In the endeavor to establish the existence of a factual dispute, the opposing party need not

9

establish a material issue of fact conclusively in its favor. It is sufficient that “the claimed factual

10

dispute be shown to require a jury or judge to resolve the parties’ differing versions of the truth at

11

trial.” T.W, Elec. Serv., 809 F.2d at 631. Thus, the “purpose of summary judgment is to (pierce

12

the pleadings and to assess the proof in order to see whether there is a genuine need for trial.’”

13

Matsushita, 475 U.S. at 587 (citations omitted). “In short, what is required to defeat summary

14

judgment is simply evidence ‘such that a reasonable juror drawing all inferences in favor of the

.15

respondent could return a verdict in the respondent’s favor.’” Zetwick v. County of Yolo. 850

16

F.3d 436, 441 (9th Cir. 2017) (quoting Reza v. Pearce. 806 F.3d 497, 505 (9th Cir. 2015)).

17

“In evaluating the evidence to determine whether there is a genuine issue of fact,” the

18

court draws “all reasonable inferences supported by the evidence in favor of the non-moving

19

party.” Walls v. Central Costa County Transit Authority. 653 F.3d 963, 966 (9th Cir. 2011). It is

20

the opposing party’s obligation to produce a factual predicate from which the inference may be

21

drawn. See Richards v. Nielsen Freight Lines. 602 F. Supp. 1224, 1244-45 (E.D. Cal. 1985),

22

affJd, 810 F.2d 898,902 (9th Cir. 1987). Finally, to demonstrate a genuine issue, the opposing

23

party “must do more than simply show that there is some metaphysical doubt as to the material

24

facts .... Where the record taken as a whole could not lead a rational trier of fact to find for the

25

nonmoving party, there is no ‘genuine issue for trial. ’” Matsushita. 475 U.S. at 587 (citation

26

omitted).

27

////

28

////

5

28a
DEFENDANT’S STATEMENT OF UNDISPUTED FACTS

1
2

Defendant’s statement of undisputed facts-—supported by citation to declarations, exhibits,

3

and transcripts from depositions—-asserts in relevant part the following. Plaintiff was employed

4

as a social worker for the County of Sacramento from 2005 until her termination in 2013.

5

Plaintiffs mother was diagnosed with dementia and resided in an assisted living facility. A

6

Certification for Family Leave was completed by Dr. Janice Rogers of Kaiser Permanente, to

7

authorize the leave for the stated puipose of allowing plaintiff “to provide supportive care,

8

transportation, and assistance with activities of daily living” for her mother. Plaintiffs mother

9

remained living in a residential care facility during the entire period of plaintiffs FMLA leave

10

which commenced in March of 2013. (Def.’s SUDF (ECF No. 65-1) 1, 3-4, 7.2)

11

Several weeks into plaintiffs FMLA leave, on April 8, 2013, plaintiff received a

12

call from Dr. Rogers expressing surprise that plaintiffs mother “was not home yet.” In a letter

13

dated April 12, 2013, addressed “to whom it may concern” from Janice G Rogers, M.D., it

14

provides that the certification for healthcare for plaintiff “was based on [plaintiff] providing care,

15

transportation and assistance with daily living to her mother” but that Dr. Rogers “learned

16

that the patient has been in an assisted living facility and not under the care of her daughter; thus

17

the FMLA that was approved for the time period of 03/18/13 - 06/09/13 is being cancelled.”

18

(Def.’s. SUDF (ECF No. 65-1) 8-9.)

19

Plaintiff was advised by letter dated April 22, 2013, that she was placed on paid

20

administrati ve leave effective immediatel y “pending investigation of possible improper use of

21

FMLA/CFR A.” Plaintiff remained on paid administrative leave from April to October of 2013.

22

On May 7,2013, plaintiff met with Stephen Wallach, Marina Chambers, and plaintiffs union

23

representative John Bonilla. A memo summary of the May 7, 2013 meeting initialed by plaintiff

24

provides that plaintiff told her mother’s physician Dr. Rogers that she was “preparing

25

home for mother” and “getting house fixed. Leaking roof. Asbestos in home.” (Def.’s. SUDF

26

(ECF No. 65-1) 10-11, 13-14.)

27

////

28

2 Citations here are to defendant’s specific numbered undisputed fact asserted.
6

29a

1

As a County of Sacramento employee with CPS, plaintiff signed an agreement for

2

the issuance of an iPhone 4s; the agreement provided that “[e]xcessive use ... for personal

3

call, Internet access or text messaging, may constitute abuse of County resources and

4

result in disciplinary actions,” Plaintiff used 9 gigabytes of data between March 22,2013, and

5

April 21, 2013, on her County issued phone while on leave, for non-County business, A memo

6

requesting discipline was submitted by Supervisor Marina Chambers to Stephen Wallach on June

7

1.9,2013. The stated basis for the request was plaintiffs “dishonesty, fraudulent use of FMLA

8

benefits and for inappropriate and excessive use of her County issued cell phone.” (Def.’s. SUDF

9

(ECFNo. 65-1) 15, 17-18.)

10

On August 27, 2013, the CPS Division Manager, Patrick Mangan, issued a

11

Recommendation For Dismissal and forwarded it to the Director of Health and Human Services,

12

Dr. Sherri Z. Heller, for approval. On August 28, 2013, Director Heller issued a Notice of

13

Proposed Disciplinary Action, recommending plaintiffs dismissal based on violation of County

14

rules and regulations and the National Association of Social Workers Code of Ethics. At the end

15

of this Notice of Proposed Disciplinary Action plaintiff was advised that she had “ten (10)

16

calendar days” to respond before a final decision would be made. Plainti ff testified in her

17

deposition that she “didn’t respond because [she] didn’t know [she] was supposed to and no one

18

told [her] to.” (Def.’s. SUDF (ECF No. 65-1) 19-20,22.)

19

Prior to her termination, plaintiff participated in a Skellv hearing3 on September 13, 2013,

20

where plaintiff was represented by union representative John Bonilla. The union presented

21

plaintiffs argument that Dr. Rogers did not inform plaintiff of the FMLA cancellation during

22

their phone call. After reviewing plaintiffs argument and evidence, the Skellv hearing officer,

23

relying upon “multiple documented instances of dishonesty,” determined that the “evidence

24

submitted [did] not warrant a change in the level of discipline.” On October 9, 2013, Stephen

25

Wallach personally served plaintiff with the Order of Disciplinary Action - Dismissal,

26
27
28

3 “A Skellv hearing is a pre-disciplinary, administrative hearing, during which a public employee
has an opportunity to present his version of relevant events.” Cason v. San Diego Transit Corn.,
No. 10-CV-00981EG (MDD), 2011 WL 1596315, at *2 (S.D. Cal. Apr. 25, 2011).
7

30a

1

(Def.’s. SUDF (ECF No. 65-1) 34-44.)

2

PLAINTIFF’S OPPOSITION

3

Local Rule 260(b) requires a party opposing summary judgment to (1) reproduce each fact

4

enumerated in the moving party’s statement of undisputed facts and (2) expressly admit or deny

5

each fact. Under that provision the party opposing summary judgment is also required to cite

6

evidence in support of each denial. Here, plaintiff’s opposition has attempted to comply with

7

Local Rule 260(b), (ECF No. 75.) Rather than recreating every disputed fact, the undersigned

8

will discuss plaintiffs relevant denials in analyzing defendant’s motion for summary judgment

9

below.

10
11

ANALYSIS
I.

Title VII

12

“Title VII exists in large part ’to make persons whole for injuries suffered on account of

13

unlawful employment discrimination.’” Clemens v. Century!ink Inc,, 874 F.3d 1113,1115 (9th

14

Cir. 2017) (quoting Albemarle Paper Co. v. Moody. 422 U.S. 405, 418 (1975)). To this end,

15

“Title VII forbids certain employers from ‘discriminating] against any individual with respect to

16

[her] compensation, terms, conditions, or privileges of employment, because of such individual’s

17

race, color, religion, sex, or national origin.’” Campbell v. Hawaii Department of Education. 892

18

F.3d 1005,1012 (9th Cir. 2018) (quoting 42 U.S.C. § 2000e-2(a)(l)).

19

Defendant argues that plaintiffs claim for race-based discrimination in violation of Title

20

VII is unexhausted. (Def.’s MSJ (ECF No. 65-2) at 13.) “In order to bring a Title VII claim in

21

district court, a plaintiff must first exhaust her administrative remedies.” Sommatino v. U.S.. 255

22

F.3d 704,707 (9th Cir. 2001). A plaintiff exhausts their “administrative remedies by filing a

23

charge with the EEOC or an equivalent state agency, like the DFEH, and receiving a right-to-sue

24

letter.” Scott v. Gino Morena Enterprises, LLC, 888 F.3d 1101, 1106 (9th Cir. 2018). Here,

25

plaintiff did file a Notice of Charge of Discrimination with the EEOC on November 12,2013.

26

(Def.’s Ex. K (ECF No. 65-4) at 97-98.)

27
28

However, plaintiffs EEOC charge did not even implicate, let alone allege, that the
defendant engaged in race-based discrimination. In this regard, under the check-the-box section
8

31a
1

of the form for “CIRCUMSTANCES OF ALLEGED DISCRIM INATION” the boxes for “Sex,”

2

“Age,” and “Disability” based discrimination are checked, while the box for “Race” based

3

discrimination is not checked. (Id at 97.) Moreover, the charge’s factual allegations do not

4

concern racial discrimination.

5

Instead, the form’s factual allegations reflect that plaintiff alleged that supervisor Marina

6

Chamber asked plaintiff “how many years before [plaintiff] retire[d] from Respondent.” (Id at

7

98.) That plaintiff had been put on “house arrest” pending an i nvestigation into “improper usage

8

of FMLA[.]” (Id.) And concluded with the following paragraph:

9

1 believe that I have been discriminated against on the basis of my
age (fifty five years of age) in violation of the Age Discrimination in
Employment Act of 1967, as amended. I also believe that I have
been discriminated against in violation of the Americans with
Disabilities Act of 1990, as amended. I further believe that I have
been discriminated against on the basis of my sex (female/primary
care-giver) in violation of Title VII of the Civil Rights Act of 1964,
as amended.

10
11
12
13

14

m

15

Plaintiff does not dispute the failure to exhaust a claim of race-based discrimination.

16

Instead, plaintiff argues that “EEOC/EFH Charge of race Discrimination is not required for

17

exhaustion of administrative remedy when pleading a requirements brought pursuant to the

18

provision of the Civil Right (sic) act of 1866[.]” (PL’s Opp. ’n (ECF No. 75) at 19.) Plaintiff is

19

mistaken.

20

The court only has jurisdiction over “charges of discrimination that are like or reasonably

21

related to the allegations made in the EEOC charge, or that fall within the EEOC investigation

22

which can reasonably be expected to grow out of the charge of discrimination.” Deppe v. United

23

Airlines, 217 F,3d 1262,1267 (9th Cir. 2000) (quotation omitted). “We ‘consider [a] plaintiffs

24

civil claims to be reasonably related to allegations in the charge to the extent that those claims are

25

consistent with the plaintiffs original theory of the case.’” Freeman v. Oakland Unified School

26

Dist.. 291 F.3d 632,636 (9th Cir. 2002) (quoting B.K.B. v. Maui Police Dept,. 276 F.3d 1091,

27

1100 (9th Cir. 2002)).

28

////

9

32a
1

Here, race-based discrimination was not like or reasonably related to the allegations made

2

in the EEOC charge. Plaintiff, therefore, has failed to exhaust a claim of race-based

3

discrimination. Accordingly, the undersigned recommends that defendant’s motion for summary

4

judgment be granted as to this claim. See Chew v, City and County of San Francisco. 714 Fed.

5

Appx, 687, 691 (9th Cir. 2017) (“Because Plaintiff failed adequately to disclose to the EEOC and

6

the DFEH the claims advanced here, he failed to exhaust his administrative remedies. This barred

7

his Title VII and FEHA claims, and warranted summary judgment for Defendants.’’).

8

II.

9
10
11
12
13

42 U.S.C. § 1981
42 U.S.C. § 1981 provides that:
AH persons within the jurisdiction of the United States shall have the
same right in every State and Territory to make and enforce
contracts, to sue, be parties, give evidence, and to the full and equal
benefit of all laws and proceedings for the security of persons and
property as is enjoyed by white citizens, and shall be subject to like
punishment, pains, penalties, taxes, licenses, and exactions of every
kind, and to no other.

14

42 U.S.C. § 1981(a). In the employment context, 42 U.S.C. §1981 “prohibits [race-based]

15

discrimination in the ‘benefits, privileges, terms and condi tions’ of employment.” Surreli v.

16

California Water Service Co.. 518 F.3d 1097, 1103 (9th Cir. 2008) (quoting 42 U.S.C. § 1981(b)).

17

Unlike Title VII, there is no exhaustion requirement prior to bringing a § 1981 claim.** See

18

Mitchell v. Keith. 752 F.2d 385, 392 (9th Cir. 1985) (“there is no requirement that a plaintiff file

19

a discrimination claim in order to bring suit under § 1981 ”).

20

“Under this circuit’s case law, § 1981 contains a right of action against municipalities.”

21

Pittman v. Oregon. Employment Dept.. 509 F.3d 1065, 1067 (9th Cir. 2007) (citing Federation of

22

African American Contractors v. City of Oakland. 96 F.3d 1204 (9th Cir. 1996)). But see Buntin

23

v. City of Boston, 857 F.3d 69,72-73 (1st Cir. 2017) (“Joining the majority of our sister circuits,

24

we hold that § 1981 ... provides no implied private right of action for damages against state

25

actors”). “[Claimants suing state actors [under § 1981] must establish that their alleged injury

26

was the result of a ‘policy or custom’ of that state actor.” City of Oakland, 96 F.3d at 1215

27
28

4 However, “legal principles guiding a court in a Title VII dispute apply with equal force in a §
1981 action.” Manatt v. Bank of America. NA. 339 F.3d 792,797 (9th Cir. 2003).
10

33a
1

(quoting Monel l v. Pep’t of Soc. Servs. of the City of New York. 436 U.S. 658, 694 (1978)); see

2

also Huddleston v. City & County of San Francisco, Case No. 16-cv-1998 YGR, 2016 WL

3

4729175, at *5 (N.D. Cal. Sept. 12, 2016) (“a municipality cannot be held liable under Section

4

1981 unless the alleged constitutional violation was committed pursuant to an official policy,

5

custom, or practice”). “[0]r that the injury was caused or ratified by an individual with ‘final

6

policy-making authority.’” Chudacoff v. University Medical Center of Southern Nevada. 649

7

F.3d 1143, 1151 (9th Cir. 2011) (quoting Villegas v. Gilroy Garlic Festival Ass’n. 541 F.3d 950,

8

964 (9th Cir. 2008)). “The action inflicting the injury must flow from an explicitly adopted or a

9

tacitly authorized municipal policy.” Schlff v. City and County of San Francisco. 816 F.Supp.2d

10

798, 810 (N.D. Cal. 2011).

11

Here, the parties do not dispute that defendant has a “comprehensive formal policy” that

12

prohibits racial discrimination against any applicant or employee. (Pl.’s Opp.’n (ECF No. 75) at

13

20.) Nor does plaintiff dispute that the supervisor who stated in 2007 that “African American

14

social workers should work in the fields and Caucasian social workers should work in the office”

15

was subject to an investigation and demoted by defendant. (Id. at 21.) Moreover, plaintiff has

16

failed to offer any evidence that plaintiff was subjected to race-based discrimination pursuant to

17

an official policy, custom, or practice, or as a result of an employee acting as a “final

18

policymaker.”

19

As recounted above, plaintiff’s amended complaint alleges roughly a half-dozen instances

20

in which “Caucasian” employees were treated better than plaintiff over plaintiffs more than eight

21

years of employment. Likewise, plaintiff’s opposition attempts to rely on alleged examples of

22

racial disparity and discrimination engaged in by the defendant against other parties. For

23

example, plaintiff argues that “four black women hired by the County [and] three [were

24

terminated].” (Id. at 12.) That two “Caucasian” coworkers engaged in similar conduct as

25

plaintiff but remained employed. (Id.) And cites to an undated, unsigned. “COUNTY OF

26

SACRAMENTO Formal Grievance Form,” apparently completed by a union representative,

27

alleging that “African American and African American Culture workers have been repeatedly

28

passed over for promotions within the department^)” (Id. at 12,64.)
11.

34a

1

The Ninth Circuit has “iong recognized that a custom or practice can be ‘inferred from

2

widespread practices or ‘evidence of repeated constitutional violations for which the errant

3

municipal officers were not discharged or reprimanded,5” Hunter v. County of Sacramento. 652

4

F.3d 1225,1233 (9th Cir. 2011) (quoting Nadell v. Las Vegas Metro. Police Dep’t. 268 F.3d 924,

5

929 (9th Cir, 2001)). However, “[I]lability for improper custom may not be predicated on

6

isolated or sporadic incidents; it must be founded upon practices of sufficient duration, frequency

7

and consistency that the conduct has become a traditional method of carrying out policy.”

8

Trevino v. Gates, 99 F.3d 911,918 (9th Cir. 1996) holding modified by Navarro v. Block. 250

9

FJd 729 (9th Cir. 2001)).

10

Here, plaintiff has failed to provide any evidence of a “widespread practice” or of

11

“repeated constitutional violations for which the errant municipal officers were not discharged or

12

reprimanded.” Plaintiff argues that “Defendant’s ... custom of systemic endemic racial

13

discrimination goes back as far as the case of Anthony v. County of Sacramento. 898 F. Supp.

14

1435 (1995)[.j” This citation, however, is to an order that merely denied the defendant’s motion

15

for summary judgment as to the plaintiff’s hostile work environment claim. Id. at 3440. The

36

order did not find that the defendant engaged in wrongful conduct. And the court’s docket

17

reflects that the action ended in a jury verdict in favor of the defendant.5

18

In the absence of any evidence that the conduct plaintiff complains of was the result of an

19

official policy, custom, or practice, or the result of an official with policy making authority, the

20

undersigned recommends that defendant’s motion for summary judgment be granted as to this

21

claim. See Shahrivar v. City of San Jose, 752 Fed. Appx. 415, 418 (9th Cir. 2018) (“Shahrivar’s

22

allegations do not plausibly allege that the City of San Jose maintained a discriminatory policy or

23

custom and his claim against the municipality was properly dismissed.”); Brown v. City and

24
25

26
27

28

5 The court may take judicial notice of its own files and of documents filed in other courts.
Reyn’s Pasta Bella, LLC v. Visa USA. Inc.. 442 F.3d 741, 746 n. 6 (9th Cir. 2006) (taking
judicial notice of documents related to a settlement in another case that bore on whether the
plaintiff was still able to assert its claims in the pending case); Burbank-Glendale-Pasadena
Airport Auth. v. City of Burbank, 136 F.3d 1360, 1364 (9th Cir. 1998) (taking judicial notice of
court filings in a state court case where the same plaintiff asserted similar and related claims);
Hott V. City of San Jose, 92 F.Supp.2d 996, 998 (N.D. Cal. 2000) (taking judicial notice of
relevant memoranda and orders filed in state court cases).
12

35a
1

County of San Francisco Department of Public Health, Case No. 13-cv-4213 3CS, 2014 WL

2

6482059, at *12 (N.D. Cal. Nov. 18, 2014) (“Defendant is entitled to summary judgment as to

3

Brown’s claim under § 1981 because Brown has not identified evidence that any conduct at issue

4

was the result of an official policy.”); Lelaind v. City and County of San Francisco. 576

5

F.Supp.2d 1079, 1089 (N.D. Cal. 2008) (“Plaintiff has not offered any evidence that the

6

challenged acts in this case were performed pursuant to a policy, custom or practice, or that an

7

official with policy-making authority was in any way involved with the challenged acts. The

8

City’s motion for summary judgment is GRANTED insofar as the seventh and eighth causes of

9

action allege municipal liability under 42 U.S.C. sections 1981 and 1983.”); Harris v, City of

10

Fresno, 625 F.Supp.2d 983, 1012 (E.D. Cal. 2009) (“Plaintiff has failed to create a genuine issue

11

of fact as to whether the alleged racial discrimination/harassment was caused by a policy or

12

custom of the City within the meaning of Monel 1 and its progeny. Summary judgment on

13

Plaintiffs § 1981 claim is GRANTED.”).

14

III,

15

.

Fourteenth Amendment Procedural Due Process
Plaintiffs amended complaint asserts, in a vague and conciusory manner, that plaintiffs

16

termination violated plaintiffs right to Due Process under the Fourteenth Amendment. In this

17

regard, the amended complaint alleges that plaintiff received “lack of proper notice[.]” (Am.

18

Compl. (ECF No. 20) at 17.) That at the Skelly hearing plaintiff “did not have an impartial

19

decision maker[.]” (Id.) And that plaintiff “was not given the opportunity to confront and cross-

20

examine witness (sic) or be provided with evidence against [plaintiff].” (Id.I

21

“The protections of the Due Process Clause apply to government deprivation of those

22

perquisites of government employment in which the employee has a constitutionally protected

23

‘property’ interest.” Gilbert v. Homar, 520 U.S. 924, 928 (1997). “In California, permanent state

24

employees possess a property interest in their job, guaranteed by statute, with attendant due

25

process rights in their continued employment.” Freitag v. Avers, 468 F.3d 528, 548 (9th Cir.

26

2006). .

27
28

In Skelly v. State Pers. Bd.. 15 Cal.3d 194 (Cal. 1975), the Supreme
Court of California held that “due process does mandate that the
employee be accorded certain procedural rights before” being
13

-■?

36a
1

3

removed. At a minimum, these pre-removal safeguards must include
“notice of the proposed action, the reasons therefor, a copy of the
charges and materials upon which the action is based, and the right
to respond, either orally or in writing, to the authority initially
imposing discipline.”

4

Walls v. Central Contra Costa Transit Authority. 653 F.3d 963, 968 (9th Cir. 2011).

2

5

Here, accepting as true plaintiffs statement of facts, the following is undisputed. Plaintiff

6

was advised by a letter dated April 22,2013, that plaintiff was thereafter placed on paid

7

administrative leave pending an investigation into possible improper FMLA use. (PL’s Opp.’n

8

(ECF No. 75) at 16.) On May 7,2013, plaintiff met with union representative John Bonilla,

9

plaintiffs supervisor Marina Chambers, and program manager Stephen Wallach. (Id. at 16-17.)

10

On August 28, 2013, Director Heller issued a Notice of Proposed Disciplinary Action

11

recommending plaintiffs dismissal based on a violation of Sacramento County rules and the

12

National Association of Social Workers Code of Ethics, although plaintiff disputes violating those

13

provisions. (Id. at. 18.) The Notice provided plaintiff with 10 calendar days to respond. (Id. at

14

19.)

15

Prior to being terminated plaintiff participated in a Skellv hearing. (Id. at 22.) Prior to

16

that hearing plaintiff met with union representative John Bonilla and was represented by Bonilla

17

at the hearing. (Id.) At the Skellv hearing. Bonilla presented an argument on plaintiffs behalf.

18

(Id.) While plaintiff asserts that the “Skellv Hearing may have been 20 minutes or less” and that

19

there “was no oral argument heard other than the union representative menacing (sic) my

20

mother,” plain ti ff does not dispute that there was a hearing, plaintiff was represented; and that

21

plaintiff was afforded an opportunity to be heard. (Id. at 24.)

22

Moreover, defendant has submitted as an exhibit a copy of the Skellv Hearing Report

23

(“Report”). (Def.’s Ex. A (ECF No. 65-4) at 2.) The report reflects that plaintiffs union

24

representative provided a detailed argument, as well as evidence in support, challenging

25

defendant’s charges of wrongdoing. The Skellv hearing officer carefully considered each of

26

those responses in light of the allegations and evidence against plaintiff, before explaining why

27

plaintiffs dismissal should proceed. (Id. at 2-11.)

28

////
14

37a

1

Under these circumstances, the undersigned finds that defendant’s motion for summary

2

judgment should be granted as to this claim. See Novoa v. City and County of San Francisco.

3

Case No. 14-cv-3617 JST, 2015 WL 5169123, at *7 (N.D. Cal. Sept. 3, 2015) (granting

4

defendants summary judgmen t where “evidence demonstrates that Defendants provided, and

5

Plaintiff fully utilized, procedures ensuring pre-deprivation due process”); Robinson v. City &

6

County of San Francisco, Case No. 13-cv-5823 JSC, 2015 WL4881158, at *5 (N.D. Cal, Aug.

7

14,2015) (“This process provided a more than adequate opportunity for him to be meaningfully

8

heard prior to termination.”); Lopez v. City and County of San Francisco. Case No. 12-cv-6523

9

MEJ, 2014 WL 2943417, at *9 (N.D. Cal. June 30, 2014) (“The Court finds this process as a

10

whole provided Lopez with more than an adequate opportunity to be heard at a meaningful time

11

and in a meaningful manner.”).

12
13

CONCLUSION
In the absence of any evidence of a disputed issue of material fact regarding the claims

14

analyzed above, the undersigned finds that defendant is entitled to summary judgment in its favor

15

on the complaint’s claims of race-based discrimination in violation of Title VII and 42 U.S.C, §

16

1981, as well as the claim for violation of the Fourteenth Amendment. After adequate time for

17

discovery, plaintiff has failed to make a showing sufficient to establish the existence of any

18

disputed issue of fact regarding elements essential to plaintiffs claims and on which plaintiff

19

would bear the burden of proof at trial.

20

Accordingly, IT IS HEREBY RECOMMENDED that:

21

1. Defendant’s January 22,2019 motion for summary judgment (ECF No. 65) be granted;

22

2. Judgement be entered for defendant; and

23

3. This action be closed.

24

These findings and recommendations are submitted to the United States District. Judge

25

assigned to the case, pursuant to the provisions of 28 U.S.C. § 636(b)(1), Within fourteen days

26

after being served with these findings and recommendations, any party may file written

27

objections with the court and serve a copy on all parties. Such a document should be captioned

28

“Objections to Magistrate Judge’s Findings and Recommendations.” Any reply to the objections

15

*

38a
1

shall be served and filed within seven days after service of the objections. The parties are

2

advised that failure to file objections within the specified time may waive the right to appeal the

3

District Court’s order. Martinez v. Ylst. 951 F.2d 1153 (9th Cir. 1991).

4

Dated: May 28,2019

5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22

DLB:6
DB\order.s\orders.pro se\jackson0920.msj.f&rs

23
24
25
26
27
28
16

